No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
FRANCISCO JAVIER PONCE-MARES,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10469
Summary Calendar

FILED
February 11, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff−Appellee,
versus
FRANCISCO JAVIER PONCE-MARES,
Defendant−Appellant.

Appeal from the United States District Court
for the Northern District of Texas
No. 4:18-CR-273-1

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Francisco Ponce-Mares was discovered by immigration authorities while

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.
*

No. 19-10469
in state custody. An immigration detainer was placed on him, but his prosecution for illegal reentry did not begin until about two years later, after he had
served his state sentence. Following his guilty plea to illegal reentry, PonceMares moved for a downward departure under the Commentary to U.S. Sentencing Guideline § 2L1.2. The district court denied departure and, varying
upwardly from the advisory guideline range, imposed a 36-month sentence.
Ponce-Mares appeals, contending that the sentence is substantively unreasonable because it did not give enough weight to the delay in the commencement
of his federal prosecution.
Generally, we review the substantive reasonableness of a sentence under
an abuse-of-discretion standard. Gall v. United States, 552 U.S. 38, 51 (2007).
Although Ponce-Mares posits that an objection is not required to preserve the
issue, our precedent permits the application of plain-error review where, as
here, the defendant fails to object to substantive reasonableness after the sentence is imposed. See United States v. Peltier, 505 F.3d 389, 391−92 (5th Cir.
2007). Because Ponce-Mares’s substantive-reasonableness challenge fails even
under the ordinary abuse-of-discretion standard, we apply the more lenient
standard. See United States v. Rodriguez, 602 F.3d 346, 361 (5th Cir. 2010).
A non-guidelines sentence may be substantively unreasonable “if it
(1) does not account for a factor that should have received significant weight,
(2) gives significant weight to an irrelevant or improper factor, or (3) represents
a clear error of judgment in balancing the sentencing factors.” Peltier, 505 F.3d
at 392 (internal quotation marks and citation omitted). In reviewing a nonguidelines sentence for substantive reasonableness, we consider “the totality
of the circumstances, including the extent of any variance from the Guidelines
range,” United States v. Brantley, 537 F.3d 347, 349 (5th Cir. 2008) (internal
quotation marks and citation omitted), but “must give due deference to the
2

No. 19-10469
district court's decision that the [18 U.S.C.] § 3553(a) factors, on a whole, justify
the extent of the variance.” United States v. Broussard, 669 F.3d 537, 551 (5th
Cir. 2012) (internal quotation marks and citation omitted).
The district court considered and rejected Ponce-Mares’s arguments for
leniency via a downward departure based on the government’s delay in commencing prosecution. The court then upwardly varied from the advisory range
of 10 to 16 months and imposed 36 months. In determining that an upward
variance was warranted, the court considered the guideline range, the arguments of the parties, the defendant’s allocution, the § 3553(a) factors, and
recidivism. Moreover, although the sentence is 20 months above the top of the
advisory range, this court has upheld larger upward increases. See e.g., United
States v. Rhine, 637 F.3d 525, 528, 529−30 (5th Cir. 2011).
The record thus does not reflect that the district court failed to account
for a factor that should have received significant weight, gave significant
weight to an irrelevant or improper factor, or committed a clear error of judgment in balancing the § 3553(a) factors. See Peltier, 505 F.3d at 392; Brantley,
537 F.3d at 350. Finally, to the extent that Ponce-Mares contests the denial of
a downward departure rather than the substantive reasonableness of his sentence, this court lacks jurisdiction to review the denial of a downward departure. See United States v. Alaniz, 726 F.3d 586, 627 (5th Cir. 2013); United
States v. Lucas, 516 F.3d 316, 350−51 (5th Cir. 2008).
AFFIRMED.

3

APPENDIX B

Case 4:18-cr-00273-O Document 34 Filed 04/23/19

Page 1 of 4 PageID 88

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:18-CR-00273-O(01)
U.S. Marshal’s No.: 70864-279
Michael Levi Thomas, Assistant U.S. Attorney
Jaidee Serrano, Attorney for the Defendant

FRANCISCO JAVIER PONCE-MARES

On December 26, 2018 the defendant, FRANCISCO JAVIER PONCE-MARES, entered a plea of guilty
as to Count One of the Indictment filed on November 6, 2018. Accordingly, the defendant is adjudged guilty of
such Count, which involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326(a) and (b)(1)

Illegal Reentry After Deportation

5/23/2016

One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on November 6, 2018.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed April 22, 2019.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE

Signed April 23, 2019.

Case 4:18-cr-00273-O Document 34 Filed 04/23/19

Page 2 of 4 PageID 89

Judgment in a Criminal Case
Defendant: FRANCISCO JAVIER PONCE-MARES
Case Number: 4:18-CR-00273-O(1)

Page 2 of 4

IMPRISONMENT
The defendant, FRANCISCO JAVIER PONCE-MARES, is hereby committed to the custody of the
Federal Bureau of Prisons (BOP) to be imprisoned for a term of Thirty-Six (36) months as to Count One of the
Indictment filed on November 6, 2018.
The Court recommends to the BOP that the defendant be housed at FMC Fort Worth, Texas, if possible.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of One
(1) year as to Count One of the Indictment filed on November 6, 2018.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the
defendant shall be surrendered to a duly-authorized immigration official for deportation in accordance with the
established procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further
condition of supervised release, if ordered deported or removed, the defendant shall remain outside the United
States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the
probation officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;

Case 4:18-cr-00273-O Document 34 Filed 04/23/19

Page 3 of 4 PageID 90

Judgment in a Criminal Case
Defendant: FRANCISCO JAVIER PONCE-MARES
Case Number: 4:18-CR-00273-O(1)

(11)
(12)
(13)

Page 3 of 4

notify the probation officer within seventy-two (72) hours of being arrested or questioned by a
law enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer; and,
report in person to the U.S. Probation Office in the district to which the defendant is released from
custody of the Federal Bureau of Prisons, or in which the defendant makes re-entry into the United
States, within 72 hours of release or re-entry.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the
financial resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

Case 4:18-cr-00273-O Document 34 Filed 04/23/19

Page 4 of 4 PageID 91

Judgment in a Criminal Case
Defendant: FRANCISCO JAVIER PONCE-MARES
Case Number: 4:18-CR-00273-O(1)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

